                        UNITED STATES DEPARTMENT OF EDUCATION
                                      OFFICE OF INSPECTOR GENERAL
                                               501 I STREET, SUITE 9-200
                                            SACRAMENTO, CALIFORNIA 95814
                                       PHONE (916) 930-2388 • FAX (916) 930-2390



                                                         July 14, 2005

                                                                                                             ED-OIG/A09-F0002

Keith W. Rheault
Superintendent of Public Instruction
Nevada Department of Education
700 E. Fifth Street
Carson City, NV 89701

Dear Superintendent Rheault:

This Final Audit Report, entitled Nevada Department of Education’s Compliance with the Public
School Choice and Supplemental Educational Services Provisions, presents the results of our
audit. The purpose of the audit was to determine whether, for school year 2004-2005,
(1) the Nevada Department of Education (NDE) had an adequate process in place to review local
educational agency (LEA) and school compliance with adequate yearly progress (AYP), public
school choice, and supplemental educational services (SES) provisions of the Elementary and
Secondary Education Act of 1965 (ESEA), as amended by the No Child Left Behind Act of 2001;
(2) LEAs provided to students attending schools identified for improvement (failed to make AYP
for two consecutive years), corrective action, or restructuring the option of attending another
public school; (3) LEAs provided SES to students attending schools that failed to make AYP
while identified for improvement, corrective action, or restructuring; and (4) NDE’s procedures
for approving SES providers complied with the SES provisions of the ESEA. We reviewed
policies and procedures at NDE and three judgmentally selected LEAs – Washoe County School
District (Washoe CSD), Elko County School District (Elko CSD), and Clark County School
District (Clark CSD).



                                                   BACKGROUND

Title I, Part A of the ESEA increased the choices available to the parents of students attending
Title I schools that fail to meet state standards. Beginning with the 2002-2003 school year, the
ESEA provided immediate relief for parents with students in schools previously identified for
improvement or corrective action prior to the enactment of the No Child Left Behind Act of
2001. LEAs must offer all students attending schools identified for improvement, corrective
action, or restructuring with the choice to attend a public school (including public charter
schools) within the LEA that is not identified for improvement, corrective action, or




          Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations.
        Final Report
        ED-OIG/A09-F0002                                                                                Page 2 of 28

    restructuring. 1 Schools that fail to make AYP while identified for improvement, corrective
    action, or restructuring are required to offer SES to low- income students. SES providers must be
    approved by the state and offer services tailored to help participating students meet state
    academic standards. To help ensure that LEAs offer meaningful choices, the ESEA requires an
    LEA to spend an amount equal to 20 percent of its Title I allocation to provide transportation to
    the school of choice and SES to eligible students, unless a lesser amount is needed to satisfy all
    demand. (The LEA must spend a minimum of five percent of its Title I allocation on
    transportation and a minimum of five percent of its allocation on SES, if the amount is needed.)

    The U.S. Department of Education (Department) allocated $64,027,325 in Title I funds to
    NDE for school year 2004-2005. For that school year, NDE allocated Title I funds to each of the
    17 LEAs in the State of Nevada. NDE utilized the Nevada Criterion Referenced Tests, Nevada
    Writing Performance Exams, and High School Proficiency Exam administrated in Spring 2004
    to determine each school’s AYP status for school year 2004-2005. NDE provided preliminary
    and final AYP determinations to the LEAs by June 30, 2004 and August 1, 2004, respectively.
    For school year 2004-2005, 53 Title I schools in 8 LEAs were identified for improvement—
    34 schools were in the first year of improvement, 17 schools were in the second year of
    improvement, and 2 schools were in the third year of improvement.

    The following table shows the number of schools required to offer public school choice and SES
    at the three LEAs reviewed in our audit and the number of students who were eligible, and
    whose parents exercised the option, for school choice or SES.

        Number of Students Eligible and Whose Parents Exercised Options Provided by the ESEA
                                        School Year 2004-2005
                            Public School Choice                                SES
       LEA                                 Parents                                   Parents
                     No. of   Students                         No. of   Students
                                          Exercised    %                            Exercised   %
                    Schools    Eligible                       Schools   Eligible
                                           Option                                    Option
Clark CSD            30(a)      26,426       780       3%       13        6,635       2,284   34.4%
Washoe CSD                  8          4,806            53         1.1%     None (b)          -              -             -
Elko CSD                    5          1,384          None           -          1           430            3(c)           0.7%
(a) Number does not include two schools with grades K-2 that NDE should have identified as in need of improvement, and
    therefore, should have offered public school choice. This matter is addressed in FINDING NO. 1.
(b) Washoe CSD did not have schools in the second year of improvement. Thus, none of its schools were required to provide
    SES.
(c) Students of the parents who exercised options all actually transferred or received SES, except for those in Elko CSD.
    Although the parents in Elko CSD requested SES, the three students did not receive the services. Elko CSD was unable to
    locate an SES provider willing to deliver services for only three students and it could not provide the services itself
    because Elko CSD had been identified as an LEA in need of improvement. NDE subsequently issued a waiver exempting
    Elko CSD from the requirement to provide SES for school year 2004-2005.



    1
      A school is identified for improvement after failing to make AYP for two consecutive years. A school in its first
    year of improvement must provide parents with the public school choice option. If the school identified for
    improvement again fails to make AYP (second year of improvement), it must also offer SES to low-income
    students. If the school identified for improvement fails to make AYP in subsequent years, the school must
    implement corrective action (third year of improvement) and undergo restructuring (fourth year of improvement).
    Final Report
    ED-OIG/A09-F0002                                                                           Page 3 of 28




                                          AUDIT RESULTS

NDE had adequate procedures to provide AYP determinations to LEAs before the beginning of
the school year, but did not make AYP determinations for seven schools. NDE had adequate
procedures to identify persistently dangerous schools to ensure such schools were not offered as
options for schools required to provide public school choice. While NDE has taken steps to
improve its procedures for approving SES providers, we found that NDE did not maintain
sufficient documentation to demonstrate that approved SES providers met ESEA requirements.

For school year 2004-2005, Clark CSD provided SES to students attending schools in their
second year of improvement. 2 We concluded that NDE’s review procedures were not adequate
for ensuring LEA and school compliance with other public school choice and SES provisions of
the ESEA. We found deficiencies in public school choice and SES notification letters sent to
parents at the three LEAs reviewed in our audit. We also found that one LEA did not offer
public school choice to all eligible students.

NDE disagreed with our finding that it did not make AYP determinations for seven schools and
the related recommendation. NDE concurred with the other findings and recommendations
presented in this final report. The text of NDE’s comments is included as an attachment to the
report.


FINDING NO. 1 – NDE Needs to Make AYP Determinations for All Schools

NDE did not determine an AYP status for seven schools with only early primary grades
(i.e., K-2, K-1). NDE’s Accountability Workbook, submitted to the Department in May 2003
and later approved by the Department, states-
          A handful of Nevada public schools …, only serve students in kindergarten
          through 2nd grade. There are no state mandated large scale assessments covering
          this grade range. These schools are located within very close proximity to a sister
          elementary school serving grades 3 through 6. Students attending the K-2 schools
          matriculate to the sister schools. As a consequence, AYP test performance of the
          sister schools will be used, along with K-2 other indicator performance (i.e.
          attendance rate), to determine AYP for the K-2 schools.




2
 Clark CSD was the only LEA reviewed in our audit that was required to provide SES to eligible students. Washoe
CSD only had schools in the first year of improvement and, thus, was not required to provide SES. After issuing
SES notification letters, Elko CSD received a waiver from NDE exempting the LEA from the requirement to
provide SES for school year 2004-2005 because Elko CSD provided evidence it was not able to provide SES and
none of the state approved providers was willing to serve Elko CSD.
    Final Report
    ED-OIG/A09-F0002                                                                               Page 4 of 28

Two of the seven schools were affiliated with schools serving grades 3 through 5 in Clark CSD
that were identified as in need of improvement for school year 2004-2005 and required to offer
public school choice. 3 Based on the procedure contained in NDE’s Accountability Workbook,
the K-2 schools should have also been identified as in need of improvement, and therefore,
required to offer public school choice. Because NDE did not make AYP determinations for
schools with only early primary grades, parents with students attending the two K-2 schools were
not offered public school choice. The Title I Director stated that NDE plans to follow the
procedure outlined in the Accountability Workbook when making future AYP determinations.

Recommendation

1.1 We recommend that the Assistant Secretary for Elementary and Secondary Education
    require NDE to annually determine the AYP designation of all K-2 and K-1 schools based
    on the procedures contained in NDE’s Accountability Workbook.

NDE Comments

NDE acknowledged that AYP profiles were not created for the seven schools, but did not concur
with the finding or the recommendation. In its comments on the draft report, NDE explained that
because of problems experienced in applying the technique described in the Accountability
Workbook, it made AYP determinations for each of the schools based upon whether or not the
school met the state’s other indicator – daily attendance. NDE stated that each of the seven
schools met or exceeded the requirements for the indicator. NDE stated that it planned to amend
the Accountability Workbook to reflect the change in methodology for determining AYP for
schools with only early primary grades. In its comments, NDE also objected to the phrasing of a
statement attributed to its Title I Director.

OIG Response

Except for the deletion of the statement attributed to the Title I Director, we have not changed
our finding and recommendation. NDE did not make AYP determinations for the seven schools
in accordance with the procedures specified in the Accountability Workbook approved by the
Department. NDE’s plan to amend the Accountability Workbook would resolve the
non-compliance, provided NDE obtained Department approval of the change.


FINDING NO. 2 – NDE Needs to Maintain Sufficient Documentation to
                Demonstrate Approved SES Providers Met ESEA Requirements

NDE’s list of approved SES providers for school year 2004-2005 contained 29 providers. Our
review of NDE records disclosed that NDE did not have adequate documentation to support the
approvals of all 29 SES providers. Initial application assessment forms used to review SES
provider applications did not contain required criteria. Also, NDE did not have documentation to


3
 The other five schools with only early primary grades were affiliated with “sister” elementary schools that were
not required to offer public school choice.
 Final Report
 ED-OIG/A09-F0002                                                                   Page 5 of 28

show that applicants adequately responded to noted deficiencies in their applications prior to
being listed as approved SES providers.

Sections 1116(e)(5) and 1116(e)(12)(B) and (C) of the ESEA contain criteria an SEA must
consider when approving provider applications for inclusion on NDE’s list. Our review was
limited to confirming that NDE considered the following in its reviews of provider applications:

   •   The provider has a demonstrated record of effectiveness in improving student academic
       achievement [Section 1116(e)(12)(B)(i)].
   •   The provider will use instructional strategies that are high quality, based upon research,
       and designed to increase student academic achievement [Section 1116(e)(12)(C)(ii)].
   •   The provider’s services are consistent with the instructional program of the LEA and with
       State academic content and achievement standards [Sections 1116(e)(5)(B) and
       1116(e)(12)(B)(ii)].
   •   The provider is financially sound [Section 1116(e)(12)(B)(iii)].
   •   The provider will provide SES consistent with applicable Federal, State, and local health,
       safety, and civil rights laws [Section 1116(e)(5)(C)].

Question C-7 of the Department’s Non-Regulatory Guidance for Supplemental Educational
Services, dated August 22, 2003, states that “[a]ll providers must be evaluated in the same way
and meet the same criteria for inclusion on the State list.”

Earlier Application Assessment Forms Did Not Contain All Required Elements. Representatives
from the Legislative Council Bureau and the State Title I Committee individually scored each
provider application using an application assessment form provided by NDE. The current
application assessment form includes all the above ESEA criteria, but earlier versions were
incomplete. The table below shows the ESEA criteria missing from earlier versions and the
versions used in each year.
 Final Report
 ED-OIG/A09-F0002                                                                           Page 6 of 28



                ESEA Criteria Missing From Application Assessment Forms
                         Used To Review Provider Applications
                                                       Version(a)
                                  42 Points     57 Points      75 Points                       70 Points
Missing Criteria (b)              A, B, C, D    A, B, C, D      B, C, D                          None

Providers Reviewed By Version
  2002-2003 (initial year)                    2                  9                 -                 -
  2003-2004                                   -                  -                 5                 1
  2004-2005                                   -                  -                 1                11
  Total Providers Reviewed                    2                  9                 6                12
(a) We used the criteria (points) listed on the form to identify the version addressed in each column of the
   table. The application assessment forms did not have distinct titles or creation dates.
(b) Missing ESEA criteria:
   A – Uses instructional strategies that are high quality, based upon research, and designed to increase
        student academic achievement.
   B – Provides services that are consistent with the instructional program of the LEA and with State
        academic content and achievement standards.
   C – Is financially sound.
   D – Provides supplemental educational services consistent with applicable Federal, State, and local
        health, safety, and civil rights laws.

Lacked Evidence That Noted Deficiencies Were Addressed. When a provider failed to obtain a
minimum score on the application assessment form, the group of representatives would note the
deficient areas on an application assessment form and forward the form to NDE. NDE then sent
a letter asking the provider to address the deficiencies and provide a response by a given date.
Not all provider files contained sufficient documentation for us to conclude that noted
deficiencies were fully addressed prior to placement on the approved list of SES providers.

Thus, NDE’s supporting documentation was not sufficient to demonstrate that providers met the
listed ESEA criteria and that noted deficiencies were resolved. Also, since NDE automatically
included provider applicants approved for the 2002-2003 and 2003-2004 school years on the
approved list for school year 2004-2005, the providers reviewed using the earlier version of the
application assessment form were not held to the same criteria as the new providers added to that
list.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education, in
conjunction with the Assistant Deputy Secretary for Innovation and Improvement—

2.1   Require NDE to review SES providers, which were previously approved using inadequate
      application assessment forms, to ensure the providers meet ESEA criteria.

2.2   Require NDE to implement controls to ensure complete approval documentation, including
      correspondence resolving SES provider application deficiencies, is maintained in SES
      provider files.
 Final Report
 ED-OIG/A09-F0002                                                                   Page 7 of 28


NDE Comments

NDE concurred with the finding and recommendations. In its comments on the draft report,
NDE stated it would re-evaluate all applications, which were previously reviewed using
inadequate application assessment forms, prior to issuance of the approved provider list for
school year 2005-2006. NDE stated a semi-annual review of all SES provider files would be
conducted to ensure that all necessary documentation is contained in the files. NDE also asked
that the report be updated to reflect the documentation provided to the auditors and placed in the
files after issuance of the draft report.

OIG Response

The documentation provided by NDE had been previously considered by the auditors in their
evaluation or did not contain the information that the auditors determined was missing from
NDE’s files. Thus, there was no need to update the report.


FINDING NO. 3 – NDE Could Improve Its Review of LEAs for Compliance with
                the ESEA Public School Choice and SES Provisions

Section 1116(c)(1)(A) of the ESEA requires a state to annually review the progress of each LEA
receiving Title I funds to determine if each LEA is carrying out its responsibilities under
ESEA § 1116. We reviewed three LEAs for compliance with public school choice provisions of
the ESEA. We also reviewed the two LEAs subject to the SES provisions of the ESEA for
compliance with those provisions. None of the three LEAs fully complied with the public school
choice and SES provisions of the ESEA. Our review found deficiencies in school choice and
SES notification letters and that one LEA did not offer public school choice to all eligible
students.

LEAs Had School Choice Notification Deficiencies

All three of the LEAs reviewed had schools required to provide public school choice for school
year 2004-2005. Each of the LEAs sent public school choice notification letters to parents, but
the letters were incomplete. One LEA did not send timely letters to parent s. Another LEA’s
letter contained a statement contrary to the ESEA.

The Three LEAs Sent Public School Choice Notification Letters That Were Incomplete.
ESEA § 1116(b)(6) defines the information that should be included in the public school choice
notification. This section states—

       A local educational agency shall promptly provide to a parent or parents (in an
       understandable and uniform format and, to the extent practicable, in a language
       the parents can understand) of each student enrolled in an elementary school or a
       secondary school identified for school improvement under paragraph (1), for
       corrective action under paragraph (7), or for restructuring under paragraph (8) –
 Final Report
 ED-OIG/A09-F0002                                                                                 Page 8 of 28

                 (A) an explanation of what the identification means, and how the school
                 compares in terms of academic achievement to other elementary schools
                 or secondary schools served by the local educational agency and the State
                 educational agency involved;
                 (B) the reasons for the identification;
                 (C) an explanation of what the school identified for school improvement is
                 doing to address the problem of low achievement;
                 (D) an explanation of what the local educational agency or State
                 educational agency is doing to help the school address the achievement
                 problem;
                 (E) an explanation of how the parents can become involved in addressing
                 the academic issues that caused the school to be identified for school
                 improvement; and
                 (F) an explanation of the parents' option to transfer their child to another
                 public school under paragraphs (1)(E), (5)(A), (7)(C)(i), (8)(A)(i), and
                 subsection (c)(10)(C)(vii) (with transportation provided by the agency
                 when required by paragraph (9)) or to obtain supplemental educational
                 services for the child, in accordance with subsection (e).

The regulations at 34 C.F.R. §200.37(b)(4)(ii) specify that the explanation of parents’ option to
transfer their child include, at a minimum, information on the academic achievement of the
school or schools to which the child may transfer and may include other information on those
schools, such as a description of any special academic programs or facilities, the availability of
before- and after-school programs, the professional qualifications of teachers, and a description
of parental involvement opportunities.

The table below shows the required information missing from each LEA’s notification letter.

                          Public School Choice Notification Letter Deficiencies
     Section                      Washoe CSD (a)
   1116 (b)(6)            Preliminary           Final               Elko CSD                     Clark CSD
   Subsections              Notice              Notice
       A                       X                  X                     X                              X
         B                                              X                                              X
         C                      X                       X                                              X
         D                      X                       X                      X                       X
         E                      X                       X                                              X
         F                      X                                              X
(a) To ensure timely notification, Washoe CSD sent preliminary public school choice notification letters for all
    schools identified as in need of improvement based on NDE’s preliminary AYP determinations. After the
    Washoe CSD Board of Trustees issued its official list of schools identified as in need of improvement, the LEA
    sent the final public school choice notification letters to those schools identified by the Board. Washoe CSD
    was the only LEA, of the three reviewed, to use preliminary notices.
 Final Report
 ED-OIG/A09-F0002                                                                     Page 9 of 28

Due to the deficiencies in the notification letters, parents of students eligible for public school
choice may not have had the information needed to make an informed decision on the school that
would be best for their children.

NDE staff and staff at the three LEAs informed us that NDE distributed a template for the public
school choice notification letter, but neither NDE nor the LEAs were able to provide us with a
copy. Thus, we were unable to confirm what information had been included in the template.
According to NDE’s Title I Director, the template did not contain information required by
Section 1116(b)(6)(C) and (D) describing what the schools, LEAs, and SEA were doing to
address the problems at the schools. NDE’s Title I Director stated that the original template
included statements with the information, but NDE removed the statements from the template
because members of the state legislature were concerned that the statements might be viewed as
an attempt to persuade parents to keep their students at the current schools. The Department’s
Office of Elementary and Secondary Education (OESE) previously identified this deficiency in
LEA notification letters during a Title I monitoring visit in October 2004. To address the
monitoring visit finding, NDE plans to include the required statements in a future template that it
intends to distribute to LEAs for use in the 2005-2006 school year.

The Title I staff at Washoe CSD and Clark CSD stated that they did not include all required
information in the public school choice notification letters because parents were provided the
information in other mailings or during parent meetings on public school choice. The Title I
staff at the two LEAs also stated that including all information made the letters too complex for
parents and that parents were unlikely to read lengthy letters. The Title I staff at Elko CSD was
unaware of the requirement to include comparative school data in the public school choice
notification letter.

NDE performs annual reviews at each LEA and selected school sites, but the reviews may not
detect the notification letter deficiencies. The checklist used by NDE’s Title I staff to conduct
the reviews included instructions to obtain copies of the public school choice notification letters,
but the checklist did not instruct the staff to confirm that the letters contained required
information.

One LEA Did Not Send Timely Public School Choice Notification Letters
Section 1116(b)(1)(E) of the ESEA stipulates that parents of students enrolled in schools
required to provide public school choice must be notified of the public school choice option “not
later than the first day of school….” Three of the five Elko CSD schools required to provide
public school choice for school year 2004-2005 did not notify parents of the public school choice
option within the required timeframe. The first day of school for each of the three schools was
August 23, 2004 and the notification letters for two schools were dated August 26, 2004 and the
letter for the third school was dated August 27, 2004. Elko CSD’s Director of School
Improvement notified principals that the notification letters needed to be provided to the parents
by the first day of school, but the principals of the three schools, who were responsible for
distributing the letters to parents, decided to send the notifications later in the week. It is
unlikely that the late notices impacted the parents’ public school choice since the three schools
were located in an isolated area of Nevada that made public school choice impractical.
    Final Report
    ED-OIG/A09-F0002                                                                           Page 10 of 28

NDE’s annual reviews of LEAs may not detect late notices because the checklist used by NDE’s
Title I staff did not include a step to confirm that public school choice notification letters were
provided within the required timeframe. Also, NDE did not provide the LEAs with written
instructions stating that the public school choice notification letters must be provided to parents
by the first day of school. Thus, NDE has little assurance that other LEAs have provided timely
notices.

One LEA Sent a Public School Choice Notification Letter Containing a Statement That Was
Contrary to the ESEA. Section 1116(b)(13) of the ESEA states that an LEA must allow a
student who transferred under the public school choice option to “remain in that school until the
child has completed the highest grade in that school.” Question B-9 of the Department’s
Non-Regulatory Guidance for Public School Choice states—

          [S]tudents who change schools [under the public school choice option] and then
          move out of the attendance zone served by a school in improvement status must
          be permitted to continue attending their new school until they have completed the
          highest grade in that school. However, once they move, the LEA is no longer
          obligated to provide for transportation.

Clark CSD’s public school choice notification letters contained the following statement, which
was contrary to Section 1116(b)(13) and the Department guidance : “If you do move, you must
transfer your child to the school to which you would now be zoned.” Clark CSD’s Title I staff
was not familiar with the cited guidance and stated that the statement would be removed from
future public school choice notification letters.

LEAs Had an SES
Notification Letter Deficiency

Two of the three LEAs reviewed had schools that were in the second year of improvement and
thus, subject to the requirement to offer SES. Section 1116(e)(2)(A) of the ESEA and
34 C.F.R. § 200.37(b)(5) require the LEA to provide, at a minimum, annual notice to parents of
(1) the availability of services and how parents can obtain the services for their child;
(2) the identity of approved providers within or near the LEA; and (3) a brief description of the
services, qualifications, and demonstrated effectiveness of each provider. The two LEAs
(Elko CSD and Clark CSD) sent SES notification letters that did not include required
information on provider effectiveness. 4 Clark CSD staff stated that information on provider
effectiveness was not included in the notification letters because NDE had not furnished the
information to LEAs. The LEAs should have requested information on provider effectiveness
from NDE or obtained the information from the SES provider or other source.

ESEA § 1116(e)(12)(B)(i) defines a provider as having a demonstrated record of effectiveness in
increasing student academic achievement. The Department’s Non-Regulatory Guidance on
Supplemental Education Services, dated August 22, 2003, specifies that the state must determine
what constitutes suitable evidence of a demonstrated record of effectiveness for the purposes of

4
  After issuing SES notification letters, Elko CSD received a waiver from NDE exempting the LEA from the
requirement to provide SES.
    Final Report
    ED-OIG/A09-F0002                                                                                Page 11 of 28

approving providers for the state list. Thus, information on provider effectiveness should have
been readily available from NDE for newly approved SES providers.

For providers that were on previous years’ State approved lists, ESEA § 1116(e)(4)(D) required
the state agency develop and implement standards and techniques for monitoring the
effectiveness of the services offered and publicly report its findings. The State Title I Director
maintained that NDE did not have information on effectiveness available for distribution to the
LEAs because the ESEA required reporting on provider effectiveness after collecting data for
two years. 5 While ESEA § 1116(e)(4)(D) does require two years of data to remove a provider
from the approved list, it does not prohibit NDE from collecting effectiveness data more
frequently.

Because LEAs did not provide provider effectiveness information in the SES notifications,
parents may not have had the needed information to make the best choice of SES providers for
their students. According to NDE’s Title I Director, NDE is developing a monitoring process for
SES providers and, at the end of school year 2004-2005, will collect effectiveness data for both
school years 2003-2004 and 2004-2005 from LEAs and SES providers.

One LEA Did Not Offer Public School Choice
to All Eligible Students

Clark CSD did not offer public school choice to kindergarten students or all eligible students at
six of its elementary schools.

Kindergarten Students. Clark CSD did not offer the public school choice option to kindergarten
students attending elementary schools that were required to provide public school choice. 6
Clark CSD staff stated that public school choice was not offered to students who elected to enroll
in kindergarten because kindergarten attendance is not required in the State of Nevada.
Additionally, the district staff maintained that the students were better off at their current schools
because the schools offered full-day sessions for kindergarten while some of the other available
schools, that would have been available under the public school choice option, only offered
half-day sessions.

Six Elementary Schools. Clark CSD did not offer the public school choice option to all students
attending Booker Elementary School, Carson Elementary School, Fitzgerald Elementary School,
Kelly Elementary School, McCall Elementary School, or Williams Elementary School. With
respect to Carson Elementary, Clark CSD staff stated that, due to a glitch in a data processing
program, the student list used to prepare public school choice notification letters did not include
all students attending the school. Thus, Clark CSD inadvertently did not offer the school choice
option to the parents of students attending Carson Elementary School that did not receive a
notification.
5
  There was no SES provider information to collect for school year 2002-2003 because none of the LEAs was
required to offer SES in that year.. Thus, school year 2003-2004 was the first year that effectiveness data would
have been available.
6
  Clark CSD also did not provide the public school choice option to students in two other schools in need of
improvement because NDE did not make AYP determinations for schools that only had early primary grades
(i.e., K-2 schools). This matter is addressed in FINDING NO. 1
 Final Report
 ED-OIG/A09-F0002                                                                          Page 12 of 28


NDE’s annual reviews at LEAs may not detect that not all eligible students were offered public
school choice. The checklist used to conduc t annual reviews did not include questions
concerning the identification of students who were eligible for the public school choice option.
NDE provided us with a revised checklist that includes a question on the LEA’s identification of
eligible students. Thus, future annual reviews should provide NDE with assurance that LEAs are
offering the public school choice option to all eligible students.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education, in
conjunction with the Assistant Deputy Secretary for Innovation and Improvement—

3.1       Require NDE to include all required information in public school choice and SES
          notification templates provided to LEAs and instruct LEAs to ensure that future
          notifications include the required information.

3.2       Require NDE to include instructions in its annual site review checklist to review copies of
          notification letters to ensure all required information was included and letters were timely
          provided to parents.

3.3       Require NDE to make effectiveness data on all SES providers available to LEAs in time to
          be included in the school year 2005-2006 SES notification letters.

3.4       Confirm that NDE distributed written instructions to LEAs stating that public school choice
          notification letters must be provided to parents by the first day of school.

3.5       Require NDE to confirm that Clark CSD provided the public school choice option in
          school year 2005-2006 to all parents of eligible students, including kindergarten students
          attending elementary schools that were required to provide public school choice.

NDE Comments

NDE concurred with the finding and recommendations. In its comments on the draft report,
NDE described the corrective action planned or taken to address each recommendation and
provided copies of developed templates, checklists, and memos.

      •    NDE provided sample templates for parent notification letters that it plans to distribute to
           school districts so that the districts can properly notify parents of their options before the
           beginning of school year 2005-2006. NDE stated that it provided technical assistance on
           what information must be included in the letters during a Title I Coordinators meeting
           and two school improvement workshops.

      •    NDE provided a modified site review checklist that included steps to ensure that parent
           notification letters contain all required information.
 Final Report
 ED-OIG/A09-F0002                                                                     Page 13 of 28

   •   NDE described its plan to include effectiveness data on all providers when the SES
       provider list for school year 2005-2006 is distributed to school districts. NDE stated tha t
       it is collecting effectiveness information from the districts on providers who are currently
       working in the state, and for those who have never been chosen or who are new to the
       list, NDE will compile the effectiveness data based on information the provider included
       in its original application.

   •   NDE provided the memo it plans to send to all Title I Coordinators containing
       instructions on notification letters, including that choice notification letters must be
       provided to parents by the first day of school. NDE plans to distribute the memo before
       the beginning of the 2005-2006 school year.

   •   NDE provided the memo it plans to send to Clark CSD reminding the district that it is
       obligated to provide school choice to all students in eligible schools, including
       Kindergarten students.



                                     OTHER MATTER

During our review, we found that Washoe CSD did not consider all eligible students when it
requested approval from NDE to reduce its Title I SES set-aside for school year 2004-2005. The
regulation at 34 C.F.R. § 200.77 states, “… an LEA must reserve [i.e., set aside] funds as are
reasonable and necessary to … meet the requirements for choice-related transportation and
supplemental educational services in §200.48 unless the LEA meets these requirements with
non-Title I funds.” Title 34 C.F.R. § 200.48 requires an LEA to spend an amount equal to
20 percent of its total Title I allocation on school choice-related transportation and SES, unless a
lesser amount is needed.

Washoe CSD had two schools that would have been required to provide SES in school year
2004-2005 if they failed to make AYP in school year 2003-2004. Washoe CSD only included
the “lowest-achieving” Free and Reduced Price Lunch (FRPL) eligible students when estimating
the funds needed to provide SES at the two schools. ESEA, Section 1116(e)(12)(A) identifies all
low- income children (i.e., FRPL eligible students), who are attending a school required to
provide SES, as eligible for those services. While ESEA, Section 1116(b)(10)(C) does authorize
an LEA to give priority to the “lowest-achieving” FRPL eligible students, that provision only
becomes relevant when the combined costs of fulfilling all requests for school choice-related
transportation and SES would require the LEA to expend an amount greater than 20 percent of
its Title I allocation.

Ultimately, the two schools made AYP and were not required to offer SES in school year
2004-2005. However, had the schools been required to provide SES, the amount of funding
set-aside would not have been sufficient to provide SES to all eligible students. Washoe CSD
had set aside $145,096 for SES in school year 2004-2005, when the set-aside amount needed for
all potentially eligible students was $203,947. Although there may be circumstances in which an
LEA does not set aside at the beginning of a school year the full amount from Title I to meet its
    Final Report
    ED-OIG/A09-F0002                                                                      Page 14 of 28

20 percent obligation, the LEA must be able to meet all demand up to the 20 percent minimum.
Accordingly, if the cost of meeting the demand for school choice transportation and SES exceeds
the amount an LEA has identified for this purpose (assuming this amount is less than
20 percent), the LEA must find resources from Title I or other sources to meet the demand up to
the 20 percent minimum.

In its comments on the draft report, NDE stated that the Washoe CSD had been informed of the
error and that, in the future, the Washoe CSD Title I office will calculate SES set-asides, if less
than the required 20 percent, using the total number of FRPL students at a given school
multiplied by the individual amount required for SES services for each student.


                       OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine if, for school year 2004-2005, (1) NDE had an
adequate process in place to review LEA and school compliance with AYP, public school
choice, and SES provisions of the ESEA; (2) LEAs provided to students attending schools
identified for improvement (failed to make AYP for two consecutive years), corrective action, or
restructuring the option of attending another public school; (3) LEAs provided SES to students
attending schools that failed to make AYP while identified for improvement, corrective action,
or restructuring; and (4) NDE’s procedures for approving SES providers complied with the SES
provisions of the ESEA. Our review of NDE’s AYP process focused solely on the timeliness of
providing AYP determinations to LEAs.
To achieve our objectives, we reviewed selected provisions of the ESEA. We also interviewed
officials from NDE and the three LEAs reviewed. We reviewed documents provided by NDE,
including the NDE Organization Chart; the NDE Consolidated State Performance Report, Parts I
and II for 2002-2003 and Part I for 2003-2004; the NDE Consolidated State Application
Accountability Workbook, State of Nevada Single Audit Report for the Year Ended
June 30, 2003; and other documents related to compliance with the ESEA provisions related to
AYP, the identification of persistently dangerous schools, public school choice, and SES.
For compliance with public school choice and SES provisions of the ESEA, we reviewed three
judgmentally selected LEAs from a universe of the eight Nevada LEAs that had Title I schools
identified for improvement or corrective action for school year 2004-2005.7 We jud gmentally
selected the three LEAs based on total student enrollment. The eight LEAs’ enrollments were in
three distinct strata—one large with approximately 265,000 students (Clark CSD), one medium
with approximately 60,000 students (Washoe CSD), and six small, each with less than 10,000
students. Of the small LEAs, we selected the LEA with the most schools identified as in need of
improvement (Elko CSD).To select our LEA and school samples, we relied on data found on the
Nevada Annual Reports of Accountability website. This website listed schools and their AYP
statuses. To assess the reliability of this data, we compared the schools listed on the Nevada
Annual Reports of Accountability site to schools listed on district websites and documentation.
Based on these tests, we concluded the data was sufficiently reliable to be used in meeting the
audit’s objectives.
7
    There were no schools in Nevada subject to restructuring for school year 2004-2005.
    Final Report
    ED-OIG/A09-F0002                                                                               Page 15 of 28


We reviewed documents from the three LEAs related to the LEAs’ compliance with the public
school choice and SES provisions of the ESEA. The documents reviewed included public school
choice notification letters sent by two LEAs and five schools at another LEA; 8 SES notification
letters sent by one LEA and one school at another LEA; documentation related to the number of
students eligible for and participating in public school choice and SES; and documentation
related to public school choice transportation expenditures.

For our review of the public school choice notification letters, we determined compliance with
the following applicable provisions of the ESEA: (1) whether parents were notified in a timely
manner; and (2) whether the notice, at a minimum, (a) informed parents that their child was
eligible to attend another public school due to the identification of the current school as in need
of improvement; (b) identified each public school, which may include charter schools, that the
parent can select; (c) explained how the school compares in terms of academic achievement to
other schools served by the LEA and NDE; (d) included information on the academic
achievement of the schools that the parent may select; (e) included information on what the
school identified for school improvement is doing to address the problem of low achievement;
(f) included information on what the local educational agency or State educational agency is
doing to help the school address the achievement problem; (g) included information on how
parents can become involved in addressing the academic issues that caused the school to be
identified for school improvement; and (h) clearly stated that the LEA will provide, or pay for,
transportation for the student.

For the SES notification letter, we determined compliance with the following selected applicable
provisions of the ESEA: (1) whether parents were notified of SES and given comprehensive,
easy-to- understand information about SES; and (2) whether the notice, at a minimum,
(a) identified each approved service provider within the LEA, in its general geographic location,
or accessible through technology such as distance learning; (b) described the services,
qualifications and evidence of effectiveness for each provider; (c) described the procedures and
timelines that parents must follow in selecting a provider to serve their child; and (d) was easily
understandable, in a uniform format, and, to the extent practicable, in a language the parents can
understand.

We performed our fieldwork at NDE’s administrative offices, the administrative offices of the
three LEAs, and Elko CSD school sites from November 2004 through February 2005. We held
an exit briefing with NDE officials on March 18, 2005. Our audit was performed in accordance
with generally accepted government auditing standards appropriate to the scope of the review
described above.




8
  Because Elko CSD relied on its schools to develop and provide public school choice and SES notification letters to
parents, we visited the four schools in Elko CSD required to offer public school choice and the one school required
to offer both public school choice and SES.
 Final Report
 ED-OIG/A09-F0002                                                                   Page 16 of 28



                     STATEMENT ON INTERNAL CONTROL

As part of our audit, we gained an understanding of NDE’s internal control procedures for
monitoring LEA compliance with public school choice and SES requirements. We also gained a
general understanding of NDE’s policies and procedures related to AYP provisio ns of the ESEA.
We identified weaknesses in NDE’s SES provider application assessment form and retention of
documents related to approval of SES provider applications. Our testing at three LEAs disclosed
instances of non-compliance that were caused or remained undetected, in part, due to weaknesses
in templates distributed to LEAs and the checklist used in annual reviews of the LEAs. These
weaknesses are discussed in the AUDIT RESULTS section of this report.


                            ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective actions to be taken will be made by the appropriate Department
officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
officials who will consider them before taking final Departmental action on this audit.

                              Raymond J. Simon
                              Assistant Secretary
                              Office of Elementary and Secondary Education
                              U.S. Department of Education
                              Federal Building No. 6, Room 3W315
                              400 Maryland Avenue, SW
                              Washington, D.C. 20202

                              Nina S. Rees
                              Assistant Deputy Secretary
                              Office of Innovation and Improvement
                              U.S. Department of Education
                              Federal Building No. 6, Room 4W317
                              400 Maryland Avenue, SW
                              Washington, D.C. 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.
 Final Report
 ED-OIG/A09-F0002                                                                   Page 17 of 28

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions under the Act.



                                             Sincerely,

                                             /s/

                                             Gloria Pilotti
                                             Regional Inspector General for Audit
Final Report
ED-OIG/A09-F0002                                                                Page 18 of 28


                                                                           ATTACHMENT




                         NDE Comments on the Draft Report

               Selected attachments that NDE provided with its comments are
               included. The other attachments will be provided upon request.
        KEITH W. RHEAULT
Superintendent     of Public Instruction
                                                      STATE OF NEVADA                         SOUTHERN NEVADA OFFICE
                                                                                                 1820 E. Sahara, Suite 205
                                                                                             Las Vegas, Nevada   89104-3746
          GLORIA P. DOPF
       Deputy Superill,tendent                                                                      (702) 486-6455
Instructional, Researchand Evaluative                                                             Fax: (702) 486-6450
                 Services

    DOUGlAS C. THUNDER
                                                                                                MOODY STREET OFFICE
     Deputy Superintendent
                                                                                               1749 Moody Street, Suite 40
 Administrative and Fiscal Services        DEPARTMENT OF EDUCATION                          Carson City, Nevada  89706-2543
                                                       700 E. Fifth Street
                                               Carson City, Nevada 89701-5096
                                           (775) 687-9200 .Fax:       (775) 687-9101
                                                            June3, 2005


             Ms. Gloria Pilotti
             Regional InspectorGeneral for Audit
             U.S. Departmentof Education
             Office of InspectorGeneral
             501 I Street,Suite 9-200
             Sacramento,California 95814-2559

             Dear M:s. Pilotti

             Enclosed you will find the Nevada Departmentof Education's (NDE) responseto your draft
             report of findings in regard to your office's audit of NDE's implementationof A YP and the
             Title I school choice/supplementaleducationalservicesoptions.

             For eachfinding, Departmentstaff have indicated whether NDE concurs or does not concur
             with the finding and the recommendationsfor correcting the finding. The attachmentsto the
             documentprovide evidenceas to how the recommendationshave already beenimplemented
             or how they will be implementedin the future.

             Any questions or concerns about the NDE response to the draft OIG report should be
             directed to Kathy St. Clair of my staff. She may be reachedat (775) 687-9185 or bye-mail
             at Is~ir@doe.nv.gov.

             Sincerely,
            lllll
            ~:/~:~.c.c~t,t~,.--
             Keith Rheault
            Superintendentof Public Instruction
            Nevada Departmentof Education

            KWR:KS/ks

            Enclosures

            cc          Gloria Dopf, Deputy Superintendent,NevadaDepartmentof Education
                        Paul LaMarca, Assistant Deputy Superintendent,Office of Assessment, Program
                        ,£\.ccountability,and Curriculum
                        Frankie McCabe, Director, Office of Special Education, ESEA, and School
                        ][mprovementPrograms
                        Kathy St. Clair, AssistantDirector, Office lof Special Education, ESEA, and School
                        ][mprovementPrograms
                                                 An Equal Opportu?ity Agency
                           Response to Draft OIG Report—
                                ED-OIG/A09-F0002



In regard to the Office of Inspector General’s audit of Adequate Yearly Progress, Choice,
and Supplemental Services in Nevada (Ed-OIG/A09-F0002), the Nevada Department of
Education submits the following responses.

FINDING NO.1—NDE Needs to Make AYP Determinations for All Schools

In the case of Finding No. 1, NDE does not concur with either the finding or the
recommendation. Additionally, we would ask that OIG consider altering the wording of
the following sentence: “NDE’s Title I Director stated that because there were so few
schools with only early primary grades, NDE had not been concerned about applying an
AYP status to those schools.” This sentence seems to suggest a cavalier disregard by
the Department for making AYP decisions for all schools, which was certainly not the
case. We would ask that the sentence be reworded as follows: “NDE’s Title I Director
stated that because there were so few schools with only early primary grades, NDE had to
use other means of making AYP determinations for these schools.”

NDE acknowledges that AYP profiles were not created for these seven schools which
house only early primary grades. Creating an AYP profile for the school would have been
impossible since there was no available assessment data upon which to base the profile,
nor is the state required to administer statewide assessments at these early grades.
However, an AYP determination was made for each of these schools, based upon
whether or not the school met the other indicator for AYP, in the case of Nevada, average
daily attendance. In fact, on the NDE website (www.doe.nv.gov), under the heading
“Nevada Report Card,” one will find an accountability report for each of these seven
schools, and in looking at that accountability report, also find that each of the seven
schools met or exceeded the requirements for the other indicator.

The problem here seems to be that the accountability workbook has not been updated to
reflect the changes in methodology for determining AYP for these schools. The problem
with the original methodology was, as mentioned above, there was no data upon which to
base an AYP profile. Further, when NDE attempted to use the methodology proposed in
the accountability workbook, we discovered there were insurmountable problems in
using the technique we originally proposed. For instance, we had no way of determining
whether the third graders attending the “sister” schools had actually attended the K-2
schools for a full academic year. Without a mechanism in place to track whether or not
second graders had indeed attended the school for a full academic year, there was no way
to confirm that we were making statistically correct identifications of these schools.
Given the fact that the consequences and sanctions for Title I schools under NCLB are
very serious, NDE did not feel that making identifications of schools based on methods
that were not statistically reliable and valid was appropriate.
Rather than using the plan that NDE had originally proposed in the accountability
workbook, NDE will amend our workbook to read as follows in regard to these seven
schools which house only K-2 students:

       For these schools, NDE proposes using the other indicator (attendance) as the
       measure of AYP. If the school meets the other indicator, the school will be
       considered to have made AYP. Additionally, NDE will create a clear indicator
       within each school’s accountability report to reflect whether or not the school has
       made AYP based on its performance on the other indicator.

FINDING NO.2—NDE Needs to Maintain Sufficient Documentation                            to
Demonstrate Approved SES Providers Met ESEA Requirements

In this case, NDE concurs with both the finding and the recommendation, with the
following exception. Since the receipt of the draft report, certain documentation (as
indicated in the e- mails included as Attachment A 1-8 with this report) has been provided
to the Office of the Inspector General. We would ask that the report be updated to reflect
the receipt of this additional documentation by the OIG Office. The follow- up e-mails
should have addressed many of the issues centered around lack of documentation.

In regard to the two recommendations related to Finding No 2, NDE proposes the
following activities:

   •   Recommendation 2.1 Require NDE to re-evaluate SES providers, which were
       previously approved using inadequate assessment forms, to ensure the providers
       meet ESEA criteria.

       In regard to the identified problem that earlier assessment forms did not contain
       all required elements, NDE is in the process of re-evaluating all applications that
       were approved under an incomplete rubric using the current rubric which does
       address all required elements. Once this process is complete, providers will have
       an opportunity to supply any missing information in order that they may remain
       on Nevada’s approved list of SES providers. Failure to provide the requested
       information will result in removal of that provider’s name from the approved list.
       This process will be completed by the time the approved provider list for the
       2005-2006 school year is circulated to all of Nevada’s school districts and posted
       to the NDE website.

   •   Recommendation 2.2 Require NDE to imolement controls to ensure complete
       approval documentation, including correspondence resolving SES provider
       application defiiciences, is maintained in SES provider files.

       As noted above, we believe that many of these issues have now been clarified
       through a series of ongoing e- mails between _________, the Title I consultant in
       charge of SES at NDE and the two auditors who conducted the Nevada review,
       __________________________. We respectfully request that the final report
       indicate that much of the missing documentation has now been located, identified,
       and placed in the relevant files. In the future, however, NDE proposes to conduct
       a semi-annual review of all SES provider files to ensure that all necessary
       documentation is indeed contained within those files.

FINDING NO. 3—NDE Could Improve Its Review of LEAs for Compliance with
the ESEA Public School Choice and SES Provisions.

NDE concurs with both the finding and the recommendations in this case. The following
is an explanation of how NDE intends to implement each of the OIG recommendations in
regard to school choice and SES.

   •   Recommendation 3.1: Require NDE to include all required information in public
       school choice and SES notification templates to LEAs and instruct LEAs to
       ensure that future notifications include the required information.

       NDE has taken the following actions to implement this recommendation. First,
       we have produced a sample template for the choice and SES notification letters,
       included here as Attachment B. This template will be provided to every LEA in
       Nevada in order that each district may properly notify parents of their options
       before the 2005-2006 school year begins.

       We have provided technical assistance to districts on two occasions to discuss
       what information the school choice and SES letters must contain. We provided
       this information during our spring Title I coordinators’ meeting, held on March
       17, 2005 and at two school improvement workshops for districts held in Las
       Vegas on May 20, 2005 and in Reno on May 23, 2005. Included as Attachment C
       in this report are the agendas from these three meetings.

   •   Recommendation 3.2: Require NDE to include instructions in its annual site
       review checklist to review copies of notification letter to ensure all required
       information was included and letter were time provided to parents.

       NDE has already modified its district review form to ensure that district
       notification letters are collected during the annual site reviews of Title I in each
       district and that these letters contain all the necessary information required by
       NCLB. A copy of the district review form is included with this report as
       Attachment D.

   •   Recommendation 3.3: Require NDE to obtain effectiveness data on all SES
       providers and provide the information to LEAs in time to be included in the
       school year 2005-2006 SES notification letters.

       NDE will include effectiveness data on all providers when the newly-revised SES
       Provider List is sent to all Nevada School Districts. This information is currently
       being collected from the districts on providers who are currently working in the
       state, and for those who have never been chosen or who are new to the list, NDE
       will compile the effectiveness data based on information the provider has
       included in the original RFP submitted to NDE. The completed list will be
       available to districts before the beginning of the 2005-2006 school year. Copies of
       the list will be provided to the Office of the Inspector General as soon as the list is
       completed.

   •   Confirm that NDE distributed written instructioins to LEAs stating that public
       school choice notification letters must be provided to parents by the first day of
       school.

       NDE has written a memo, included here as Attachment E, that will be sent to all
       Title I Coordinators before the beginning of the 2005-2006 school year.

   •   Require NDE to confirm that Clark CSD provided the public school choice option
       in school year 2005-2006 to all parents of eligible students, including
       kindergarten students attending elementary school that were required to provide
       public school choice.

       When the choice/SES notification templates are provided to all Title I
       Coordinators in all Nevada school districts, a memo, included here as Attachment
       F, will accompany the Clark County School District mailing, reminding the
       district in writing that it is obligated to provide school choice to all students in
       eligible schools, including Kindergarten students.

OTHER MATTER

During the course of the OIG review of the Washoe County School District, it became
apparent that NDE had provided advice to the district in terms of required set-asides for
SES services. NDE had informed WCSD that it could calculate a “lesser amount” for
SES and choice services if it could prove to NDE that a lesser amount than the 20% set-
aside would be needed. The Washoe County School District Title I office was advised
that they could calculate this “lesser amount” by identifying all the students at a given
school who were eligible for Free and Reduced Lunch who also scored in the below
proficient category on statewide assessments, and multiplying this number by the
required SES allowance for each eligible student in the district. However, OIG has since
informed NDE that SES services must be offered to all FRL students, regardless of
proficiency status. Washoe County has been informed of this error, and in the future the
WCSD Title I office will calculate SES set-asides, if they would be less than the required
20%, using the total number of FRL students at a given school multiplied by the
individual amount required for SES services for each student.
                                                                             Attachment B


           Sample Template For Choice/SES Notification Letter to Parents




                                           (Date)


Dear Parent of (Name of School) Student:

Every year, the Nevada Department of Education identifies schools within the state that
have not met certain performance targets, also known as Adequate Yearly Progress or
AYP, for two or more consecutive years. Those schools are designated as being in need
of improvement. (Name of school) has been designated as a school in need of
improvement for the 2005-2006 school year. Because our school receives federal Title I
funds to assist our students, you as a parent are entitled to certain options once our school
was identified as being in need of improvement. This letter is to inform you of those
options.

(REQUIREMENT A—an explanation of what the identification means, and how the
school compares in terms of academic achievement to other elementary schools or
secondary schools served by the local educational agency and the State educational
agency involved). NDE suggests the following content for this paragraph: Reiterate what
the identification means (that the school has not made AYP for two or more consecutive
years) and compare the performance of the school to the performance of other schools in
the same grade cluster, i.e., elementary, middle, or high school, within your district and
within Nevada. This information can be obtained by visiting the NDE website at and
clicking on the No Child Left Behind” icon. The information on how all schools did in
your district will be available under the “Adequate Yearly Progress” heading, along with
information on the scores for the entire state. This information will allow you to create a
comparison so parents are aware of the performance of their own children in comparison
to other children within the district and the state. You may wish to consider presenting
this information in table format or you can present it in the form of a brief narrative.

(REQUIREMENT B—the reasons for the identification). Here, you should specifically
identify which subpopulations within your school did not make adequate yearly progress.
You can access this information at under the No Child Left Behind icon mentioned in the
previous paragraph. Provide information separately for English/language arts and for
math.

(REQUIREMENT C—an explanation of what the school identified for school
improvement is doing to address the problem of low achievement). In this paragraph
include information on what the school is already doing to raise student achievement.
You can mention the goals of your school improvement plan, any special programs and
interventions that the school provides for students who need extra assistance, and what
sorts of professional development are being provided to the teachers at the school in order
to improve instruction. This is your opportunity to illustrate that despite being identified
as a school in need of improvement, the leadership and staff are working hard to improve
student achievement.

(REQUIREMENT D—an explanation of what the local educational agency or State
educational agency is doing to help the school address the achievement problem). For
this paragraph, you must confer with your district office to identify how the district itself
is responding to the specific needs of this school. If the district is offering special kinds
of technical assistance or extra resources such as personnel or funding for this school, this
should be mentioned here. In addition, if yours is a school just entering its first year of
improvement under Title I, you can mention that the state will provide extra funding to
the school to assist the school in revising its school improvement plan and to implement
that plan. You can also mention that a Title I school in its first year of improvement is
required to use these funds to hire an outside expert who will assist the school in
revisiting and implementing its revised school improvement plan.

(REQUIREMENT E—an explanation of how the parents can become involved in
addressing the academic issues that caused the school to be identified for school
improvement). This paragraph provides an opportunity to highlight how parents can
become involved in improving the academic performance of their own children. Perhaps
you can use this section to request parent membership on your school improvement team.
You can also outline any activities the school has scheduled to assist the parents in
helping their own children academically, i.e., Family Math Nights, Family Literacy
Nights, meetings where the teachers and principal discuss with parents opportunities for
parents to assist with homework, etc.

(REQUIREMENT F—an explanation of the parents’ option to transfer their child to
another public school, with transportation provided by the district, or to obtain
supplemental education services for the child). The contents of this paragraph will vary
according to the specific circumstance of the school. For instance, for a school entering
its first year of improvement, only the choice option needs to be addressed here. For a
school entering its second year of improvement or beyond, both the choice option and the
opportunity for Supplemental Educational Services should be outlined for the parents in
this notification letter. Remember that you are required to provide at least two choices
(when two are available) for parents who wish to exercise the choice option. You must
also indicate that transportation costs for this choice option will be borne by the district.
You must provide a reasonable amount of time for parents to make this decision, and the
notification must reach parents before the first day of the 2005-2006 school year. In a
case where the school must offer both choice and SES, remember that parents must be
given the opportunity to choose their child’s SES provider from the list compiled by the
Nevada Department of Education. You will also need to inform parents of the total
amount of services to which their child will be entitled, and you need to let parents know
that this option is available only to those parents whose children receive free and reduced
price meals. If you have any questions at all about the content of this section or the letter
in general, please don’t hesitate to contact the Title I consultant at NDE who is assigned
to your particular district.

(CLOSING—a good chance to summarize, to reiterate deadlines for accessing choice or
SES servic es, and to announce meetings that may be held to provide parents with further
information about choice and SES).

Sincerely,



Your Name and Position
                                                                                 Attachment E




                                         June 2, 2005

MEMORANDUM
To: District Title I Coordinators
From:       ____________, State Director of Title I
Subject: Parent Notification Letters for Title I Schools in Need of Improvement

Enclosed with this mailing you will find a sample template to use when notifying parents
of their rights when their child attends a Title I school that has been designated as in
need of improvement. Please be aware that this template was developed in order to
comply with a finding against the Department as a result of an audit by the U.S.
Department of Education’s Office of Inspector General. In order to comply with the
requirements of the OIG report, NDE was required to produce this template. We must
also inform you that we will be collecting all notification letters in the future, and it is
extremely important that these letters contain all the elements that are included in the
template.

We would also take this opportunity to reiterate in writing that all notification letters
must be provided to parents before the beginning of the 2005-2006 school year. As is
the case with the notification letters, we will be monitoring to ensure that all notification
letters were provided to parents before the beginning of the 2005-2006 school year in
your district.

Thank you for your assistance in complying with these requirements.
                                                                               Attachment F




                                        June 1, 2005




_______________
Director of Title I
515 West Cheyenne Avenue
North Las Vegas, Nevada 89030

Re: IASA, Title I, Part A, Basic
    School Choice/Kindergarten Programs

Dear ________:

Enclosed is a template for writing school choice and supplemental educational services
parent notification letters; the template includes all of the various components which
must be present in said letter, as well as a format.

While I understand that school designations have not yet been published, I know that
your Title I office is eager to be ready with these letters as soon as possible, and I think
you will find the template to be a useful reference.

Finally, I would also like to remind you that school choice must be offered to the parents
of those children who will be entering kindergarten in Title I schools which are
designated as in improvement. This is an essential component of the law.

Sincerely,



__________________
Title I Consultant
